HHS/OIG-Audit--"Audit of Six Ulcer Treatment Drugs Reimbursed Under the Minnesota Medicaid Prescription Drug Program, (A-06-92-00005)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Six Ulcer Treatment Drugs Reimbursed Under the Minnesota Medicaid
Prescription Drug Program," (A-06-92-00005)
September 17, 1992
Complete
Text of Report is available in PDF format (1.13 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the State agency did not have any restrictions
pertaining to the manufacturers' recommended dosages for ulcer treatment drugs.
About $1.07 million (Federal share) in cost savings could have been realized for
Calendar Year 1990 had the State agency limited payment for these drugs to the
amount needed to pay for the manufacturers' recommended dosages. We recommended
that the State agency establish procedures to limit the payment for these ulcer
treatment drugs to the manufacturers' recommended dosages.